HHS/OIG-Audit--"Office of Inspector General's Partnership Plan--State of Ohio Office of the Auditor Report on Clinical Laboratory Services, (A-05-96-00019)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Office of Inspector General's Partnership Plan--State of Ohio Office
of the Auditor Report on Clinical Laboratory Services," (A-05-96-00019)
March 22, 1996
Complete Text of Report is available in PDF format
(184 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides results on the Ohio Office of the Auditor's (OOA)
audit of Medicaid clinical laboratory services in Ohio for Calendar Years (CY)
1993 and 1994. This work was conducted as part of the OIG's partnership efforts
with State Auditors to expand audit coverage of the Medicaid program. The OOA
determined that Ohio's Department of Human Services was reimbursing providers
for laboratory services that were not properly grouped together or that were
duplicated for payment purposes. The OOA estimates that ODHS overpaid these
providers by $5.2 million (Federal share $3.2 million) in CYs 1993 and 1994.
The overpayments occurred because ODHS's Medicaid processing section did not
have adequate edit routines built into the computer programs used to screen
provider billings. The OOA recommended that the State agency develop edit routines
that would detect unbundled and duplicate billings prior to payment and install
the routines in the programs ODHS uses to screen provider billings. The Chief
of Internal Audits of ODHS concurred with the findings.